No. 19-1021
In The

^xxpreme ([laxxti of il\e ^nxieb^inie^
Micah Jessop; Brittan Ashjian,
Petitioners,
V.

City of Fresno, et al.,
Respondents.
CERTIFICATE OF SERVICE
I, Jessica Ring Amunson, hereby certify that I am a member of the Bar of this
Court, and that I have this 19th day of March 2020, caused three copies of the Motion for
Leave to File and Brief of The DKT Liberty Project, Reason Foundation, The
Individual Rights Foundation, The Law Enforcement Action Partnership, and Restore
the Fourth, Inc. as Amici Curiae in Support of Petitioners to be served via overnight
mail and an electronic version of the document to be transmitted via the Court’s
electronic filing system to;
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyar@hoganlovells.com

Daniel P. Barer
Poliak, Vida and Barer
11500 West Olympic Blvd
Suite 400
Los Angeles, CA 90064
(310) 551-3400
daniel@pollakvida. com

Counsel for Micah Jessop, et al.
Counsel for City of Fresno, et al.

\it,m0o..kMePhU/nyd^

Jessiqaming Amunson f

^

